        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
The Department's Implementation
of the "Energy Annex, Emergency
Support Function 12" to the National
Response Framework




DOE/IG-0847                         January 2011
                                 Department of Energy
                                   Washington, DC 20585
                                       January 31, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                 INFORMATION: Special Report on The Department's
                         Implementation of the "Energy Annex, Emergency Support
                         Function 12" to the National Response Framework

BACKGROUND

As required by the National Response Framework (NRF), the Department of Energy, in
coordination with the Department of Homeland Security (DHS), plays an active role in
responding to national-level disasters and emergencies. As described in the "Energy Annex,
Emergency Support Function" (ESF-12) to the NRF, the Department is responsible for serving
as the focal point to assist Federal, state and local governments, and private industry with the
disruption, preparation and mitigation of damaged energy systems and components. Within the
Department, the Office of Electricity Delivery and Energy Reliability (OE) executes the national
preparedness mission. This office deploys response teams to affected areas to: 1) facilitate
restoration of damaged energy systems and components; 2) conduct assessments; and, 3) provide
energy status reports. The Department maintains and can dispatch up to 10 regional
coordinators, supplemented by over 80 Federal and contractor employee volunteers, in response
to incidents requiring a coordinated Federal Response.

In April 2009 the U.S. Government Accountability Office issued a report finding fault with the
Federal Emergency Management Agency's (FEMA) (a component of DHS) national
preparedness system. As a result, the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) asked that Inspectors General of agencies responsible for national response
activities participate in a review to ascertain their respective agency's level of preparedness.
Because of the importance of this program, we initiated an inspection to determine to what extent
the Department is prepared to fulfill its emergency response roles and responsibilities. Our
review focused on the Department's emergency response functions to include: training; Federal,
state, and private energy sector coordination; readiness assessments; and, equipment
procurement or maintenance.

RESULTS

We determined that the Department had completed a number of actions designed to prepare it to
implement an effective response to incidents and disasters. Specifically, Departmental personnel
had participated in major coordination efforts, made readiness assessments in response to
hurricane efforts, implemented short and long-term incident management and recovery efforts,
and maintained financial accountability. However, we identified an opportunity to improve
preparedness by ensuring that responders receive required training prior to participating in
exercises or actual emergency situations. Training should improve the overall effectiveness of
responders and enhance their ability to resolve problems encountered during incidents and
disasters.

A summary of preparedness activities, as well as the training issues that we observed, are
outlined in this report. Detailed results of our review have been provided to the CIGIE for
inclusion in a government-wide "Lessons Learned" document.

Coordination Efforts and Readiness Assessments

We determined that the Department had conducted numerous coordination activities with various
Federal, state, and private organizations before, during and after incidents. Additionally, we
found that the Office of Infrastructure Security and Energy Restoration (ISER), an organization
within OE, is responsible for executing the national preparedness mission. Specifically, ISER
had completed assessments of energy deployments and exercises, activities that resulted in
lessons learned, recommendations and corrective actions.

                                      Coordination Efforts

ISER coordinates with primary and support agencies, including state and local government, and
private industry, before, during and after incidents. In support of energy restoration efforts,
ESF-12 requires that regional coordinators attend meetings, participate in exercises, and develop
expertise on regional issues and infrastructure to ensure that they are adequately prepared in the
event of a disaster or incident. From April 2007 to February 2010, ISER's regional coordinators
participated in at least 35 working group meetings, partnership advisory council meetings,
conferences, and regional and national level exercises sponsored by various Federal, state, and
private industry groups.

                                     Readiness Assessments

Based upon the information that we obtained, we concluded that ISER's conduct or participation
in coordination and readiness assessment activities in preparation for future deployments was
consistent with the requirements of ESF-12. ESF-12 requires that ISER participate in post-
incident hazard mitigation studies to reduce the adverse effects of future disasters. OE and ISER
have conducted situational and periodic readiness assessments to evaluate Federal, state, and
local governments, and private industry's responses to major hurricanes and coal delivery
disruptions to power plants. The Department is also tasked with participating in various best
practices and lessons learned forums to ensure future disruptions are addressed in the most
efficient manner possible. The results of the energy sector assessments included lessons learned
and recommendations addressed to Federal agencies, state and local governments, and energy
sector industries, including participants from ISER.




                                                2
Planning for Short-Term and Long-Term Incident Management, Recovery, and Mission
Assignments

ISER planning activities were also consistent with requirements established by DHS. Based on
information we obtained, we determined that ISER had conducted planning for short-term and
long-term incident management, recovery, and mission assignment activities in preparation for
future deployments, activities consistent with the requirements of ESF-12.

In particular, we noted that catastrophic incident planning and critical infrastructure preparedness
were well-documented. Specifically, ISER had established responder procedures in anticipation
of a disaster or incident that included steps related to pre-activation and imminent activation.
The ISER Emergency Response Organization Plan provides steps to include identification of
staffing, roles and responsibilities of responders, necessary reports, reporting times, product
input and output, and other information related to the event. ISER Desk Instructions also
described the duties and responsibilities of responders while deployed for both short and long-
term incidents, and recovery. Notably, the instructions include step-by-step guidance concerning
the deployment process; public information media interface; operations room products safety
plan development; field reporting; records management; status board maintenance; state industry
interactions; and, travel coordination.

Additionally, to ensure effective coordination with private sector organizations and maximize the
use of private sector resources in responding to a threat or incident, ISER maintains a database of
energy and utility infrastructures that is available to responders for planning purposes. This
database contains maps and descriptions for each state and FEMA region for various types of
energy installations such as oil refineries; natural gas processing plants; liquid natural gas
terminals; electric utilities; and, coal mines. The information provides specific locations, points
of contact, and addresses and phone numbers of the energy systems within a particular region,
which can assist responders in their mission to provide expert advice regarding energy
restoration.

Training

While we observed that the Department generally provided trained staff to support interagency
emergency responses to incidents and disasters, we found that certain required responder training
may not have been completed. To ensure that the regional coordinators and volunteers are
adequately trained, ISER established specific ESF-12 training requirements. Our examination,
however, established that a number of coordinators and volunteers may not have received the
required training prior to deployment. As such, the Department lacked assurance that its
responders were adequately prepared to respond to incidents and disasters. A description of the
training, delineated by position and range of expertise, is contained in Attachment 1.

ISER maintains a list of volunteers representing the Department and its contractors who deploy
in the event of a sustained event. The ISER training database identified 81 volunteers, who,
depending on training and expertise, may be able to work alone or under the direct supervision of
a regional coordinator. The required training provides the coordinators and volunteers with
familiarity of their specific functions, to include responsibilities within a coordination center, and

                                                  3
acquaints them with other personnel they will interact with while on site. Both regional
coordinators and volunteers must complete initial responder training or annual refresher training
(if applicable) prior to deployment. In addition to the initial and refresher courses, the regional
coordinators and volunteers are also required to complete a number of other training courses.

During our review of the Department's training database, we determined that not all required
training had been completed. For example, we found that while all 10 regional coordinators had
completed the initial responder or annual refresher training, each of the 10 coordinators was
missing at least one of the additional required training courses. Regarding the 81 volunteers, we
noted that 95 percent had completed either the initial responder training or the annual refresher
training. Contrary to ISER guidance, we identified a number of instances in which volunteers
deployed prior to completing the required additional training. Specifically, six volunteers
deployed to Hurricane Ike; seven volunteers deployed to Hurricane Gustav, and one volunteer
deployed to an Ice Storm event in 2009, without the required additional training. We recognize
that operational exigencies associated with these incidents likely played a role in the
Department's decision to deploy these staff members prior to their completion of all required
training. Although the possibility for problems exists, we did not identify specific instances
where missed training caused any problems during the deployments.

We also identified issues with training database discrepancies that could impact training record
integrity. As part of our testing, we compared the ISER training database to a separate ISER
volunteer database which identified those volunteers available for call up in the event of a
disaster. These tests disclosed that six responders on the available volunteer call up list were not
listed in the training database. We discussed the database discrepancies with ISER officials who
advised us that several corrective actions had been taken to resolve the discrepancies to include:
1) contacting individuals regarding training completion; 2) reassigning responders who had not
received the required training to non deployment status; and, 3) updating responder training
courses records.

Financial Accountability

We determined that the Department had procedures in place to ensure financial and property
accountability for ESF activities. ISER has assigned a financial analyst whose responsibility is
to track and maintain mission assignment documentation. We conducted interviews with the
financial analyst and DHS staff, who indicated that the Department is not experiencing any
concerns regarding financial and property accountability. In addition, ISER's internal guidance,
identified as Desk Instructions, provides a step-by-step procedure for managing and controlling
responder mission assignments. For example, Desk Instruction 7.5, "Mission Assignment
Tracking," establishes guidelines for the ISER responders on how to track mission assignment
numbers and costs to ensure that the costs associated with ESF-12 activation are linked with the
correct Mission Assignment code. Further, Desktop Instruction 7.10, "Payroll Management,"
establishes guidelines for ESF-12 responders on how to document their deployment time to
ensure that the costs associated with overtime are linked with the correct Mission Assignment
code.




                                                 4
Procurement and Property Accountability

Although DHS requires that agencies conform to certain procurement and property
accountability requirements, ISER officials told us that they did not believe the requirement was
applicable to the Department. These officials explained that they were not required to execute
contracts, procure goods and services, or conduct property accountability activities outside of the
Department's normal, internal processes. They indicated that other than travel, in general, they
did not procure goods and services to fulfill their primary function. As noted, ESF-12 assigns
the Department's responders as information coordinators who receive and provide energy sector
specific data to enable the timely restoration of energy. Therefore, other than information
technology (such as, laptop computers and telephones purchased by the Department), ISER
officials informed us that there was no need to procure goods and services to fulfill this function.

The Department indicated that it had initiated corrective actions to resolve the training issues we
identified. As such, formal recommendations are not being made. While a formal response to
this report is not required, we suggest that the Department closely monitor the status and
progress of planned corrective actions.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Assistant Secretary for Electricity Delivery and Energy Reliability
    Deputy Assistant Secretary, Office of Infrastructure Security and Energy Restoration
    Chief of Staff




                                                 5
                                                                                   Attachment 1


    Excerpt from the Office of Infrastructure Security and Energy Restoration Emergency
                                 Response Organization Plan

        Energy Annex, Emergency Support Function ENERGY ASSESSMENT TEAM
                            TRAINING REQUIREMENTS



                                                 DEPARTMENT ESF-12 POSITION
                                                       Responder Level
REQUIRED TRAINING
                                        Type I                    Type II            Type III
    COURSES
                             Regional                          Experienced       Volunteer Field
                                             Team Leader
                            Coordinator                      Field Responder       Responder

    ICS-100Introduction
                                                                                    
           to ICS

     ICS-200 Basic ICS                                                              

ICS-300 Intermediate
                                
         ICS

ICS-400 Advanced ICS            

     IS-700 NIMS: An
                                                                                    
       Introduction

      IS-800 NRP: An
                                                                                    
        Introduction

ESF-12 Initial Training                                                             

     ESF-12 Refresher
                                                                                    
         Training

•     ICS-100 Introduction to Incident Command System (ICS): This course provides a basic
      introduction to the fundamentals of ICS. Entry-level first responders and other emergency
      management personnel are required by the National Incident Management System to
      complete this course. This course is completed only once; however, trainees shall complete
      ICS-100 prior to attending the Initial ESF-12 Training.




                                                   6
                                                                        Attachment 1 (continued)


•   ICS-200 Basic ICS: This course provides responders with more guidance on how to
    function within the ICS. ICS-200 is required for first line supervisors, single resource
    leaders, lead dispatchers, field supervisors, company officers, and entry-level positions on the
    Incident Management Team.

•   ICS-300 Intermediate ICS: This course provides responders with more detailed hands-on
    training on performing leadership functions within the ICS structure. Personnel attending
    this course will learn how to apply the principles of the ICS to an expanding event and will
    also be required to respond to a simulated event. ICS-300 Intermediate ICS is required for
    middle management, strike team leaders, task force leaders, unit leaders, division/group
    supervisors, branch directors, and Multi-Agency Coordination System function roles.

•   ICS-400 Advanced ICS: This course provides detailed instruction on the fundamentals for
    Command and General staff within the Incident Command System. The course material is
    meant to expand on the information covered in ICS-100 through ICS-300. The target
    audience for this course is senior staff who are expected to perform in a management
    capacity in an Area Command or Multi-Agency Coordination entity.

•   IS-700 National Incident Management System (NIMS); An Introduction: This course
    provides an explanation of the NIMS components, concepts and principles. All personnel
    with a direct role in emergency preparedness, incident management, or response must
    complete this training.

•   IS-800 National Response Plan (NRP); An Introduction: This course provides an outline of
    how the NRP correlates to NIMS and describes the roles and responsibilities of the
    coordinating structures within the NRP. All Federal, state, territorial and local personnel
    whose primary responsibility is emergency management must complete this course.

•   Initial ESF-12 Responder Training: The purpose of this course is to provide first time
    responders with a description of the ESF-12 mission as outlined in the National Response
    Framework, ESF-12 Annex. This two-day course also includes instruction on the activation
    and deployment process, disaster management principles and communication and includes a
    review of the basic elements of the energy sector.

•   Refresher ESF-12 Responder Training: Refresher training provides a more in depth review
    of the tasks associated with completing the ESF-12 mission. Responders will be given an
    opportunity to respond to a simulated energy emergency and demonstrate their ability to
    perform core ESF-12 functions. Any lessons learned or updates to the program that occurred
    during the previous year will be communicated during refresher training. Refresher training
    must be taken annually.




                                                 7
                                                                                      Attachment 2


SCOPE AND METHODOLOGY

This inspection was performed between January and October 2010, and included emergency
response activities by the Department of Energy's (Department) Office of Infrastructure Security
and Energy Restoration. To accomplish the inspection objective we:

   •   Conducted interviews with Department and contractor officials;

   •   Reviewed coordination messages; trip reports; and schedules; incident after action and
       corrective action reports; training requirements; and databases;

   •   Accessed information from the Energy Sector Infrastructure databases;

   •   Reviewed Federal, Department, and local policies and regulations pertaining to
       emergency response; and,

   •   Obtained and reviewed prior Office of Inspector General and other related reports.

Our inspection did not address Office of Health, Safety and Security responsibilities as it pertains
to emergency management in the Department. This inspection was conducted in accordance
with the Council of the Inspectors General on Integrity and Efficiency's, Quality Standards for
Inspections, issued by the President's Council on Integrity and Efficiency.




                                                 8
                                                             IG Report No. DOE/IG-0847


                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:


1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.



Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
